                                                     OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

Case Number: A02030019



             We received an allegation that the subject1plagiarized text and ideas from a confidential
     proposal2 (source proposal) submitted to a foreign research agenc4$ (other agency) into his
     National Science Foundation (NSF) proposal4(the NSF proposal). As a result of its
     investigation, the subjects' University found that the subject committed research misconduct
     under its policy. The University sanctioned the subject by 1) reprimanding him; 2) withdrawing
     any federal government proposals he submitted as PI; 3) removing his name from pending
     federal government proposals on which he,was a co-PI or key personnel; 4) prohibiting him ftom
     submitting proposals for funding to any Federal agency for 2 years; 5) prohibiting him from
     acting as a peer reviewer for research proposals for any Federal agency for 3 years; and
     6) requiring him to certifjl and provide assurances for 3 years for any proposal he submits to any
     funding saurce that the work in the proposal is original to him or appropriately cited. We
     concurred with the University's investigation. We recommended NSF send a letter of reprimand
     to the subject informing him he has been found to have committed research misconduct, debar
     the subject for 2 years fiom receiving federal funds and prohibit the subject for 3 years fiom
     reviewing research proposals for NSF. NSF's adjudicator sent the subject a letter of reprimand
     and debarred the subject for 1 year.


     This case is closed and no further action will be taken.




     contribute the plagiarized text and had not committed research misconduct. We concurred with the University's
                                           NATIONAL SCIENCE FOUNDATION.
                                               4201 WllSON BOULEVARD
                                         .    ARuNBT~~;VIRaINIA 22230

                                                         June 1; 2004


                 OFFICEOFTHE
                DEPUTY DIRECTOR




                                                                         .        .


                Re:- Debarment


        .       . On April 17,2004, the National Science Foundation (k~)
                                                                      sent you d Notice of ~ r 0 ' ~ s e d
              Debarment in which NSF proposed to debar you fromdirectly or indirectly obtaining the benefits
              of Federal grants for a period of.oneyear. Th6 ~ o t i c sets
                                                                       e forth in detail the circumstances giving.
         . rise to yo@ debarment. NSF's debarment action is based upon the Foundation's administrative
    .     .. record indikating that you engaged in plagiarism in a proposal that you kbmitted to NSF (NSP
              Proposal No.                  ). In that Notide, NSF provided you with thirty days to respond to the'
            . proposed d e b m a t .
'

               0ver thirty days have elapsed since you r&vd the Notice and NSF has not received a response.
              Accordingly, you are debarred until April 17,2005. Debarment precludes you h m receiving
              Federal financial and non-financial assistance and benefits under non-procurement Federal
           . programs a d activities unless an agency head or authorized designee makes a d e t m a t i o n to
        . grant an exception in acimrdance .with 45 CFR Section 620.215. Non-procurement transactions
            . include grants,cooperative agreements, scholmhips, fellowships,.contracts'of assistance, loans,
               loan guarantees, subsidies;inswance, payments for specified use, and donation agreements.   .   .


             . In addition, you are prohibited Gram r&iving Federal contracts or approkxl subcontracts under . .
              the Federal ~cquisitionRegulations (FAR).at 48 CFR Subpart 9.4 for the period of this
               debarment. 45 CFR Section 620.1lqc). D u d g the debarment period, you may not have
            ,  supeivisory responsibility, primary management, substantive control over, or critical influence on,
               a grant, antract, or cooperative agreement with any ageicy of the Executive Branch,ofthe Federal
               Govenment.
                 If&  have any questions regarding the foregoing, you may contact Lawrence Rudolph, General
            ,                                         4201 Wilson ~oulevaid,Room 1265, Arlington, Virginia
                 Counsel, National Soienoe'F~undati.on,
                 22230.                                                               . .

                                                                                                           .       .
                                            .   Sincerely,



                                                Joseph Bordogna
                                                Deputy ~ i r 6 ~ t 0 E       ..
                                                   Summary
              The Office of Inspector General (OIG)has concluded subject 1 plagiarized text and
     ideas in a confidential proposal2 (source proposal) submitted to a foreign research ageno$ (other.
     agency) into his National Science Foundation (NSF) proposal4(the NSF proposal). As a result
     of its investigation, the subjects' University found that subject 1, the PI on the NSF proposal,
     comrnieed research misconduct under its policy. The University sanctioned subject 1 by:
     1) reprimanding him; 2) withdrawing any federal goverrhent proposals he submitted as PI; 3)
     removing his name ftom pending federal government proposals on which he was a co-PIor key
     personnel; 4) prohibiting him kom submitting proposals for fundingto any Federal agency for 2
     years; 5) prohibiting him fkom acting as a peer reviewer for research proposals for any Federal
     agency for 3 years; and 6) requiring him to certify and provide assurances for 3 years for any
     proposal he submits to any funding source that the work in the proposal is original to him or
     appropriately cited, As discussed below, given the plagiarism of both text and ideas, the
     violation of the confidentiality of peer review, and the interception of a letter sent by NSF-OIG
     to subject 2, we recommend NSF send a letter of reprimand to subject 1 informing him he has
     been found to have'committed research misconduct, debar subject 1 for 2 years fiom receiving
     federal funds and prohibit subject 1 for 3 years fiom reviewing research proposals for NSF.
                                                      OIG'S rnquirv
             We received an allegation that the NSF proposal (Appendix A), submitted by subjects I
     and 2, contained text and ideas taken from a confidential source proposal submitted by 0 t h
     scientists-tothe other agency. At our request, the other agency provided our office with an                     '



     official copy of the source proposal (Appendix B) and a list of the scientists to whom the source
     proposal was sent for merit r e ~ i e wone
                                            , ~ of whom was subject 1. During our inquiry, we
     identified approximately 45 lines of text in several sections of the NSF proposal that appeared
     copied fiom the source propdsal.
            . We wkte confiddal letters to each subject asking for an explanation! ' w ereceived a
     response fiom subject 1,7who admitted he received the source proposal to review and accepted
     fbll respo&ibility for the copied text. He stated that subject 2 had never seen B e source proposal
     and played no role in the preparation of the NSF proposal. Subject 1 explained that, although
     part of the description of the specific technique in the NSF proposal was copied fiom the source

   Subject 1 i
  '&l@u& initially there 'weretwo subjects in this case, the University determined that'the co-PI, 1
             (wbject 2), did not-contributethe plagiarized text and had not committed research misconduct. We
 2



 4

                                                                                                      is listed as the PI and
 5
  The list of merit reviewers of the source proposal'ishiAppendix C.
  We include our letter to subj'ect 1, whichis s i a r to theletter sent to subject 2, in Appendix D.
 ' Subject 1's response is included as Appendix E, bcluding Exhibits 1 through 7. We received no response from
   subject 2. We learned later, as discussed in this report, that subject 1 intercepted the Federal Express letter sent to
. .subject 2. 'Subject 1 only showed the letter to subject 2 when our office referred .
                                                                                         the investigittion to the university,
   at which time he told subject 2 what he'had done and showed him the lever.
                proposal, he had extensive experiencein developing this technique. He M a ;xplained that he
                meant no harm in copying fkom the source proposal. He said he did cite the published work of
                the source proposal's authors properly, only failing to appropriatelycite the copied material from
                the source proposal.

                        Subject 1 provided documents to support his assertion of his personal friendship with the
                PI of the source proposal. Subject 1 suggested that he and the source proposal PI were mutually
                aware of their similar research endeavors through "open communications and shared
                knowledge," sharing "the very essence of these research proposals" and the specific technology
                presented. (page 2, Appendix E) He fkther emphasized that, because he had suggested the co-PI
                of the source proposal as a possible merit reviewer for his NSF pruposal, it should be clear that
                his actions did not have any "bad intention." (page 3, Appendix E) In addition, subject 1 claimed
                that he had included the source proposal PI as a suggested reviewer when he submitted the
                proposal to NSF via FastLane, %ut, somehow it did not get printed." (page 3, Appendix E)
                Finally, in a set of seven exhibits, subject 1 provided examples of his long-time expertise in the
                development of the specific technology presented in the NSF proposal.

                       Our analysis of subject 1's response determined that the allegation had substance and we
                formally referred the allegation to the subjects' University for investigation and its opinion of
                community standards regarding the subjects' actions.'
                                                  The University's Investigation
                   .    The University appointed an ~d HOC Investigation Committee (the Committee) to
                condud the investigation. The Committee investigatedgwhether subjects 1 and 2 committed
.   .           plagiarism by failing to attribute material (text and ideas) used in their NSF proposal to the
                original authors of the material contained in the source proposal. The Committee interviewed
                subjects 1 and 2, the present and former Chairs of the subjects' academic department at the
                University, and the source proposal PI.

                    The Committee found that

                            [subject 11knowingly copied substantial portions of the [source] proposal into the
                            NSF prbposal, and knowingly failed to correct his conduct before submitting the
                           'proposal to the NSF. :such plagiarism reflects a knowing diseegard of accepted
                            standards of practice in the professional community and constitutes research
                            misconduct.

                            The Committee [found] that [subject 21 had not seen and was unaware of the
                            [source] proposal prior to his learning of the NSFYsallegation on Sept. 13, 2002,
                            and that he played no role, in copying portions of the [source] proposal into the                     .   .




                     B+ause subject 2 provided no response to our initial letter of inquiry, we were unable to conclusively determine
                     his role in the alleged plagiarh We were utiable to contact subject 2 confidentially because he had no email
        :            address at the university and because his only listed telephone number at the University was in a shared laboratory
                     with subject 1, and so our referral included subject 2.
            '   .    The Committee's report is in Appendix F.
           NSF proposal. Therefore, [subject 21'h& not committed plagiarism. [page 2,
           Appendix F]

        The Committee specifically determined that subject 1 had copied "more than SO 111or
partial lines of text and headings" and that subject 1 "admits that he copied this material fiom the
[source] proposal." [page 4, Appendix F] It determined that sub'ect 1's act was a significant
departure Born the standards of scholarship in subject 1's field." The Committee further stated
that plagiarism of material from a confidential proposal,

           pose[d] an even greater threat to the integrity of the scientific endeavor than the
           copying of published work, for a number of reasons. First, plagiarism fiom a
           confidential proposal is harder to discover, and so may more easily go undetected.
           Second, the possibility of personal financial gain may be stronger when copying
           fiom another's research proposal, since such material may represent newer and
           more novel scientific work than previously published work, and hence it could be
           more attractive to potential sources of funding and thus likelier to be funded.

           Third, plagiarism of another's research proposal that was received in the context
           of a confidential peer review process subverts the integrity of that process. The
           success of academic science depends fundamentally on the integrity of peer
           review, and on the willingness of good scientists to participate fully, honestly, and
           energetically in the good-faith creation, review, and critique of scientific
           proposals. Breach of confidentiality could potentially threaten the willingness of
           scientists to submit proposals that fully and accurately reflect -the details of their
           science, out of fear that they may be "scooped" by competitors or colleagues who
           are reviewing their proposals, which in turn could impede the ability of peer
           reviewers to .msess the true merits of a proposal. Without trust and confidence in
           thk ethical conduct of peer review, the integrity and quality of science is
           threatened. [page 5, Appendix F]

         Further, the Committee found that subject 1 copied original scientific ideas and concepts
 into his NSF proposal. The Committee determined that the material copied by subject 1 in the
 Methodology Section of the NSF proposal (pp. 12-14) was a "significant part of the scientific
 'core' of the proposal." [pages 4-5, Appendix F] The C o h t t e e states that     -                   -..   --


           [gliven the extensive nature of the copying fiom the [source] proposal into a            .

           central scientific section of the NSF proposal (the "Methodology" sedion), he has
           plagiarized both the original' authors' language          their ideas. [page 12,
           Appendix F]

        The Committee's report summarized subject 1's three main defenses or justifications for
 his conduct. First, subject 1 said his "previous professional relationship and correspondence
 with" (page 1Oj Appendix F) the PI of the source proposal resulted in his assuming, innocently
 and unconsciously; that it was all right to use the materials fiom the source proposal. Second,
 subject 1 claimed he already had some of the ideas in his own mipd that were presented in the

lo   Page 4, Appendix F.
    source proposal when he received it for review (page 10, Appendix F). Third, subject 1
    explained that the combination of deadline pressures and the overheating of the room in which
    he prepared the NSF proposal resulted in his carelessness (page 10, Appendix F). The
    Committee concluded that it did

           not believe that any of these defenses or justifications mitigate the offense or
           affect the Committee's findings that [subject 11 knowingly copied material fiom
           the source document without permission or proper attribution. [page 10,
           Appendix F]

            The Committee reviewed many documents previously authored by subject 1 to determine
    if there existed any pattern of behavior (17 of subject 1's submitted proposals beginning in 1992,
    and 14 NSF pro osals submitted by other scientists and sent to subject 1 for merit review over
,
                     R
    the past 4 years ). It found no further evidence of any other copying by subject 1.
                         ,




           The Committee concluded that

           the plagiarism committed by [subject 11 represents research misconduct of a
           serious degree. The seriousness is aggravated by the fact that it occurred in
           connection with a breach of knfidentiality in the peer.review process established
           by [the other agency]. It is also aggravated by what the Committee believes is                      ..

           [subject l's] inability or unwillingness to understand the wrongfbl nature of his
           conduct, as illustrated by his defenses of it. Finally, the seriousness. of this
           &sconduA is aggravated by [subject l's] interception of NSF's initial June 2002
           mesponde&e to [subject 21, thereby depriving his Co-PI of the opportunity to
           defend himself and .potentially obstructing the NSF's initial inquiry' in the


            While it does not mitigate the seriousness of his plagiarism, [subject 11has made
            it clear that he alone is. responsible for it. [Subject 11 has cooperated in the
            investigation, apologized for his condud, and has made consistent efforts in his
            letter to NSF and his testimony to the Committee to make it clear that [subject 21
            played no part in the plagiarism. [Subject 2's] testimony is consistent with
            [subject l's], and the Committee concludes that [subject 21 did not commit
            plagiarism. [page 13, Appendix F]

                      Subiect 1's Resaonse to the Universitv's Investigation Reaort
            Subject 1 received a draft copy of the University's lnv&tigation Report. He requested
    that the.Committeeand the President of the University consider clarifying and or modifying two



    "  On request, our office provided the Committee copies of NSF proposals subject 1 received for merit reviewed
      over the past 4 years.
    l2 As required by section 4(d) of the Inspector General Act of 1978, as amended (5 U.S.C.App. 4(d)), we referred
      this matter to the Assistant United States Attorney's (AUSA's) Office                                      for
      possible obstruction of justice. The AUSA declined to prosecute.
issues.13 First, he asked t h t the letter of reprimand have a finite length of time that it would be
in his file, after which it would be removed Second, he requested that his two pending proposals
not be withdrawn. He explained he would withdraw his .name; but does not wwt his collaborator
on one proposal and subject 2 on the second to suffer.
       The Committee informed sub'ect 1.that it "decided to make no changes to the report that
was provided to you in draft form."' J
                                   '

                                       University Action A~rainstSubiect 1

  -     The University imposed theafo1lowingsanctions against subject 1:a) a letter of reprimand
to be placed in subject 1's Department file to be available for future reviews of subject 1; b) a
withdrawal of all pending proposals subject 1 submitted as PI; c) a removal or redesignation of
subject 1 from any pending proposal at a Federal agency on which he is a co-PI or key personueI;
d) a prohibition for subject 1to submit a proposal for funding to any Federal agency as a PI, w-
PI, or other key personnel, for 2 years fiorn thedate of his reprimand letter; e) a prohibition for
subject '1 to act as a peer reviewer of research proposals for axiy Federal agency for 3 years from
the date of the reprimand letter; and f ) a required certification by subject 1 and assurancesby two
specifid University representatives that any proposal he submits for 3 years contains only
original or properly attributed work.

                                               OIG's Assessment
       We believe the ~hversity'sInvestigation Report was accurate and complete in
addressing the alleged plagiarism, and the University followed reasonable procedures; therefore,
we accept the report in lieu of doing our OMinvestigation. NSF's misconduct regulation, 45
C.F.R. part 689, was revised in 2002. The alleged plagiarism by subject 1 occurred before April
17,2002, the effective date of NSF's revised regulation. Accordingly, we apply the definition of
"misconduct" fi-omthe version of NSF's regulation in effect when the misconduct occurred. A                             .
finding following the procedures of the current regulation (45 C.F.R. part 689.2(c) (2002))
requires that: (1) there be a significant departure fkom accepted practices of the relevant research
community,(2) the research misconduct be committed intentionally, or knowingly, or recklessly,
and (3) the allegation be proven by a preponderance of the e~idence.'~
                                                    'TheAct
       Based upon the evidence, we concur with the University's conclusion that subject 1
copied about 50 lines of text £rom the confidential source proposal into his NSF-proposal. NSF's
Giant Proposal Guide clearly states:
          NSF expects strict adherence to the rules of proper scholarship and attribution.
          The responsibility for proper attribution and citation rests with authors of a
          proposal; all parts of the proposal should be prepared with equal care for this



 l3 Appendix F,   subject 1's Letter of               to the AOR is at end of the University's Investigation Report,
    before the Attachments. .
. " Appendix F,AOR's letter of                     $I subject 1 is at end of University's Investigation Report before
    the Attachments.
  l5 45 c.P.R !j 689.2(c).
           concern. Serious failure to adhere to such standards can result in findings of
           misconduct in science. [I6]
Subject 1 clearly did not adhere to the rules of proper scholarship and attribution when he
committed this act.
        The Committee further concluded that some of the copied text contained ideas that were
original to the authors of the source proposal and that those ideas were central to the proposed
scientific methodology in the NSF proposal. We concur.
       We further concur with the University that plagiarizing text and stealing ideas from a
confidential proposal makes this act even more egregious because it cuts at the heart of the peer
review process. Effective and successful merit review depends on scientists trusting that their
proposals will be handled in a confidential and fair manner. We agree with the University that
subject 1's act was a significant departure from accepted practice.
                                                        Intent
        As noted previously in this report, the Committee concluded subject 1's copying of text
and ideas was knowing. We concur with the Committee's findings of facts and its assessment of
intent. The Committee established this fact in its interviews with subject 1. (Appendix F,
Attachment 4)
                                                 Standard of Proof
       We conclude a preponderance of the evidence shows subject 1 committed research
misconduct when he knowingly copied about 50 lines of verbatim and paraphrased text from the
confidential source proposal, including ideas original to the authors of the source proposal.
                                       OIG's Recommended Disposition
        In deciding what actions are appropriate when research misconduct is found, NSF must
consider several factors. These factors include how serious the misconduct was; the degree to
which the misconduct was knowing, intentional, or reckless; whether it was an isolated event or
part of a pattern; whether it had significant impact on the scientific record; and other relevant
circumstances.17
        In comparison to some cases that resulted in findings due to plagiarism, we believe the
amount of copied text is moderate. We also recognize that subject 1's plagiarism does not form
a part of a pattern. However, we believe there are several aggravating factors and circumstances
associated with this case that must weight heavily in our recommendation as to its disposition.
First, subject 1 not only copied text, but also copied ideas, which became central to the core of
the research he was proposing. Such intellectual theft is research misconduct of the most serious
kind. Second, plagiarism of both text and ideas derived from a violation of confidentiality of
merit review is very serious and warrants significant action by NSF to maintain the scientific
community's confidence in the merit review process, regardless of which agency's merit review
process is compromised. Third, subject 1 purposely intercepted correspondence from our office,
to subject 2 regarding our inquiry. This resulted in the needless inclusion of subject 2 in the
University's investigation and slowed down if not obstructed our inquiry.


l6   Italics emphasis added to text from NSF's Grant Proposal Guide, p.1, section I. B.
l7   45 CFR § 689.3(b).
                      . .
                                                                                                 .
       We conclude that subject 1 acted knowingly when he copied text and ideas from the
confidential source proposal.into bis NSF proposal. We conclude the consummate actions of
subject 1 make this case of research misconduct very serious.
        We conclude subject 1's plagiarism warrants a finding of research misconduct. The
University's action is appropriate, but will not protect the Federal government's interests if
subject 1 elects to change institutions and does not protect the merit review process at NSF. We
recommend that NSF make a finding of research misconduct and send a letter of reprimand to
the subject.'* Consistent with the University, we recommend subject 1 be debarred for 2 years
fiom receiving any Federal fundslgand that the debarment period begin at the time that NSF's
letter of reprimand is sent. Further, to protect the merit review process we recommend that
subject 1be prohibited from reviewing any NSF proposals for 3               These
recommendations fully protect the Federal government's interests and are consistent with the
University's adjudication.

                        Subject's Response 'tothe Draft Investigation Report
        The Subject received a copy of the draft investigation report. He elected not to respond.21




la The letter represents a Group I action (45 CFR8 689,3(a)(l)(i)).
 l9This is a Group IU action (45 (SPR 8 689,3(a)(3)(iii)).
20 This is a Group    action (45 CPR 8 689.3(a)(3)(ii)).
21 Appendix G.
